CERTIFICATE OF WORD COUNT
Case No. __________________
Case Name:
Thomas Holmes v. Randy Gibbs, Warden Iowa State Penitentiary
Document Title:
Petition for Certiorari

Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Petition for Certiorari, which was prepared using Times New Roman
12-point typeface, contains 6,473 words, excluding the parts of the document that are
exempted by Rule 33.1(d). This certificate was prepared in reliance on the word-count
function of the word processing system (Microsoft Word) used to prepare the
document.
I declare under penalty of perjury that the foregoing is true and correct.
DATED this 1st day of October, 2021.

/S/ Bruce H. Stoltze
Stoltze & Stoltze, PLC
300 Walnut St, Suite 260
Des Moines, Iowa 50309
Telephone: (515) 244-1473
Email: Bruce.Stoltze@stoltzelaw.com
ATTORNEY FOR PETITIONER
THOMAS D. HOLMES

